                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

Case Number: A12010002                                                                        Page 1 of 1



                  We assessed an allegation of research misconduct in a publication 1 that acknowledged
          NSF support, and we assessed the University's 2 inquiry report on the matter. We concur with
          the report conclusion that the publication does not present results of original research, and that
          allegations of falsification are more accurately disagreements with methodology, and
          disagreements in interpretation or criticism. We find no substance to allegations of falsification.

                     Accordingly, this case is closed.




NSF O IG Form 2 ( 11 /02)
